•   •
              FOUO EC8BtlliftS P#.TO RJ!JSTRICTEB IllfOIIllAtillll}




   (U)

   Additional Information and Copies

   To request~s of this report, contact Mr. Michael J. Roark at (703) 60~
   (DSN 664_ or Ms. Mackensie E. Ryan at (703) 604~DSN 664~

   Suggestions for Audits
   To suggest ideas for or to request audits, contact the Office of the Deputy Inspector
   General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932.
   Ideas and requests can also be mailed to:

                                 ODIG-AUD (ATTN: Audit Suggestions)
                                 Department of Defense Inspector General
                                   400 Army Navy Drive (Room 80 I)
                                       Arlington, V A 22202-4704


 .. r   .,.   IJ   •• f. ' ••

 "-"'\"'1""-" ' . ' To report fraud, waste, mismanagement, and abuse of authority.

 hnt                                 •    Send ",linen complaints to: Defense Hotlin.e, The Pentagon. Wo~hingtoo. OC 20301·1900
 I I          v'"                         ~:     800.424.9098 e-mail: hotflOe@dodi9.nt~ \·I,w/.dodig.milJhotiine




Acronyms (U)
ACO                             Allied Command Operations
ACT                             Allied Command Transformation
IA                              Individual Augmentee
ISAF                            International Security Assistance Force
JFC                             Joint Force Command
JFTC                            Joint Force Training Centre
JWC                             Joint Warfare Centre
OMLT                            Operational Mentoring and Liaison Team
RC                              Regional Command

              FOUO EC8BtlliftS !>IATO R~STIUCT~J,) IRf8FlHllti9R)
                                                                                                                                  beG)
-                                INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704




                                                                                            February 5, 2008

    MEMORANDUM FOR DIRECTOR, JOINT STAFF
    SUBJECT: Report on DoD Support to NATO International Security Assistance Force
             (project No. D2007-DOOOLA-0016.000) (U)


          (U) We are providing this report for review and comment. We considered
    management comments on a draft ofthis report when preparing the final report.
           (U) DoD Directive 7650.3 requires that aU recommcndations be resolved
    promptly. Wc request that the Director, Joint Staffprovide comments on the
    recommendation by February 25, 2008.
            (D) If possible, pleasc send management comments in electronic format (Adobe
    Acrobat file only). Copies ofthc managemcnt comments must contain the actual
    signature of the authorizing official. We cannot accept the / Signed / symbol in placc of
    thc actual signature. If you arrange to send classified comments clectronically, they must
    bc sent over the SECRET Internet Protocol Router Network (SIPRNET).
            (U) We appreciate thc courtesies extendcd to the staff. ~tions should be
    directed to Mr. Michael 1. Roark at (7..QJlQ04.-r>SN 664_ or
    Ms. Mackensie E. Ryan at (703) 604_(DSN 664'-. See Appendix D for the
    report distribution. The team mcmbers are listed on the inside back cover.
                                   By direction of the Deputy Inspector General for Auditing:


                                                  ~~7:---:'-.        r--
                                                                  .-7..,....-7........ ,
                                              •   -   j   ='Z-    .......-/'    .::..-./-:-......
                                            ..i,~Don;.Ja A. Bloomer
                                                 DCliuty Director
                                                 Ioint and Overseas Operations




                                                                                                               b(6)
FOlJO ~C8Rt8iR8 NATO RE!iJTR-ICTED IHtilFlHllti8R~




      THIS PAGE TNTENTIONALLY LEFT BLANK (U)
         FOBO (CoIitaiIi5 PUtTO RESTRICTED Iltfarlftftti81t)

               Department of Defense Office of Inspector General

Report No. D·2008·039                                                   February 5, 2008
   (Project No. D2007-DOOOLA-OOI6.000)

              DoD Support to the NATO International Security
                           Assistance Force (U)

                              Executive Summary (U)

(U) Who Should Read This Report and Why? 000 personnel who are responsible for
supporting and participating in future training for International Security Assistance Force
(ISAF) events should read this repOI1. It discusses how 000 is supporting Not1h Atlantic
Treaty Organization (NATO) training centers, programs, and events for ISAF.

(U) Background. NATO is an alliance of26 countries from North America and Europe
committed to fulfilling the goals of the North Atlantic Treaty signed in Washington,
D.C., on April 4, 1949. NATO provides a forum for North American and European
countries to consult on security issues of common concern and take joint corrective
action. NATO is an intergovernmental organization in which each member country
retains its sovereignty. NATO decisions are made jointly by the member countries based
on consensus.

(U) NATO ISAF was established in 200 I by the United Nations. The ISAF mission is to
conduct military operations to assist the Government of Afghanistan in establishing and
maintaining a safe and secure environment. NATO ISAF conducts these operations with
the Afghan National Security Forces to assist in extending Government authority and
influence, help with Afghanistan's reconstruction, and contribute to regional stability.

(U) Results. 000 has supported and stands ready to continue to support NATO ISAF
training for headquarters, regional commands, and individuals based on NATO's ISAF
training requirements identified in July 2006. Unless training requirements are
continually updated to reflect changes in the composition of ISAF and the evolution of
operations in Afghanistan, 000 may not be able to provide up·to-date training support to
coalition forces to prepare them for duty in ISAF. Therefore, DoD should continuously
work with NATO to update and validate training requirements (see the Finding section of
the report for the detailed recommendations).

(U) Management Comments. The Director, Joint Staff did not provide comments to a
draft of this rep0l1. We request that the Director, Joint Staff provide cotrunents on the
recommendation by February 25, 2008. Although not required to comment, the Deputy
Joint Force Trainer, Operations, U.S. Joint Forces Command provided an update on
training events that occurred after the completion of audit work. See the Finding section
of the report for a discussion of management comments and the Management Comments
section of the repot1 for the complete text of the comments.




         Feue (C8lttftilts NATO R-BSTIHCTJi>Q IItf8t'lftftti9H)
FOBO (Contains NATO RESTRICTEB mMllllation)




     THlS PAGE INTENTIONALLY LEFT BLANK (V)




FOBO (Colltaills HATQ   JYlST:RlCT~D laf8FIRQti8A)
       FOUO (CSHtlliRS ~IATO &I!:~TlUCTED IR(8FRlllti9R)


Table of Contents (U)

(U)
Executive Summary

Background

Objectives                                                              3


Finding
      000 Support to the Training of the NATO International Security
          Assistance Force                                              4

Appendixes
      A.   Scope and Methodology                                        9
      B.   NATO Structure                                              11
      C.   Training of NATO ISAP                                       i5
      D.   RepOlt Distribution                                         20

Management Comments
      U.S. Joint Forces Command                                        23
FQYQ   (C8H~lliH8 :NATQ ~STRICTJiJB IHf8rlftll~i8H)




       THIS PAGE fNTENTIONALLY LEFT BLANK (U)




FQYQ   (C8H~lliH8 ~fATQ   RJiJSTRlCTJiJB   IHf8rlftll~i8H)
              FOBO        (ColitAilt~    P(l\TO RESTRICTED fitful illation)



Background (U)

           (U) NATO. NATO is an alliance of26 countries from North America and
           Europe committed to fulfilling the goals of the North Atlantic Treaty signed in
           Washington, D.C., on April 4, 1949. NATO provides a forum for member
           countries to consult on security issues of common concern and take joint action.
           NATO is an intergovernmental organization in which each member country
           retains its sovereignty, but decisions are made by consensus of the member
           countries.

           (U) NATO operational forces are assigned to the alliance by member countries or
           contributed by partner countries l for carrying out a specific mission. NATO acts
           as a catalyst to generate the forces needed to meet requirements and allow
           member countries to participate in crisis management operations that they could
           not undertake on their own.

           (U) NATO has two strategic commands: Allicd Command Operations (ACO),
           located in Mons, Belgium, and Allied Command Transformation (ACT), located
           in Norfolk, Virginia.

           (U) ACO plans and executes NATO operations through three subordinate
           commands: Joint Force Command (JFC) Brunssum, JFC Naples, and Joint
           Command Lisbon.

           (U) ACT is responsible for:

                •    (U) conducting training and education programs that will provide leaders,
                     specialists, and headquarters staffs that are trained in common NATO
                     standards and are capable of operating efficiently in a joint military
                     environment;

                •    (U) supporting the exercise requirements of ACO; and

                •    (U) leading the transformation of NATO military structures, forces, and
                     capabilities.

           (U) Within ACT, three subordinate organizations contribute to NATO training
           and transformation: the Joint Warfare Centre (JWC), the Joint Force Training
           Centre (JFTC), and the Joint Analysis and Lessons Learned Centre.

           (U) For additional background infornlation on NATO, see Appendix B.

           (U) Operation Enduring Freedom-Afghanistan. After the terrorist attacks on
           September 11,2001, the United States launched Operation Enduring Freedom-
           Afghanistan, a counterterrorist operation in Afghanistan. Operation Enduring


I   (U) A partner country supports and participates in NATO activities but is not one of the 26 countries
    committed to fulfilling the goals of the North Atlantic Treaty signed on April 4, 1949. For example,
    Austria is a partner country.



             FOYO fCSRtlliRS             ~ATO Ri~TRlCTJm                      Informatjon)
          FOUO tContains P(/kTO RES'fRiCTEB Infolliiatiun)


        (U) Freedom is carried out under the authority of the Commander, U.S. Central
        Command, and is represented in Afghanistan by Combined Joint Task Foree-82.

        (D) ISAF. ISM was established in 200 I by the United Nations. In August
        2003, NATO assumed authority for the ISAF mission, which was limited to
        protecting Kabul, Afghanistan. In October 2003, the United Nations Security
        Council authorized expansion of the NATO mission beyond protecting the
        Regional Command (RC)-Capital in Kabul. In a phased process, [SM expanded
        into other regions to protect RC-North (October 2004), RC-West (September
        2005), and RC-South (July 2006). RC-East came under the protection of ISM on
        October 5, 2006, completing the transition of all Afghanistan regions under ISAF
        protection.

        (U) ISAF is under the command of ACO and its subordinate command, JFC-
        Brunssum. ISAF comprises a headquarters and five RCs that carry out the ISAF
        mission in their assigned geographic areas. As of March 2007, ISM received
        force contributions from 37 countries,2 totaling approximately 36,000 troops. The
        map below illustrates the ISM RCs.


           ISAF REGIONAL COMMANDS
           & PRT LOCATIONS



                                                                                                Kabul




                                                                           *    ISA""RT
                                                                                ,.RT L.... d NIUon

                                                                           6.   Riglonil Comm.n:l
                                                                           o    KABUL




        Source: NATO (V)
        ISAF Regional Commands (U)




'(U) Non-NATO member countries have also contributed troops to ISAF.

                                                2
         FOUO (C61lt8i1lS p.(ATO R)!;STRICTEI)                         IR(QrlRati9R~
             FOUO (C81ltllillS Jl'fATO RESTRlCT)!;Q IRf8FlRllti8R)


           (U) The mission ofiSAF in Afghanistan is to:

                •   (V) conduct military operations in its assigned area of operations,

                •   (V) assist the Govenunent of Afghanistan by working with Afghan
                    National Security Forces to establish and maintain a safe and secure
                    environment,

                •   (U) support the Government in extending its authority and influence,

                •   (U) aid Afghanistan's reconstruction, and

                •   (V) contribute to regional stability.

           (U) DoD contributes to the ISAF mission by assisting NATO in conducting
           predeployment training, providing personnel to ISAF headquarters, providing
           forces to RC-East, leading 12 of the 25 Provincial Reconstruction Teams J in
           Afghanistan, and providing access to V.S. training facilities. 000 assists NATO
           ISAF training at the ISAF headqua11ers, at ISAF RCs, and for individuals by
           providing support personnel (such as observers, trainers, teachers, and reservists),
           facilities, and logistics support.


Objectives (U)

           (U) The overall audit objective was to evaluate 000 support to the NATO ISAF
           in Afghanistan. Specifically, we reviewed 000 support in training,
           communications, and interoperability. During the audit, we decided to focus on
           DoD support to NATO ISAF training. We reviewed conununications and
           interoperability concerns only in relation to NATO ISAF training. See
           Appendix A for a discussion of the scope and methodology and prior coverage
           related to the objectives. See Appendix B for additional background on the
           structure and functions of NATO. See Appendix C for a detailed description of
           NATO ISAF training.




J   (U) Provincial Reconstruction Teams assist local authorities in reconstructing and maintaining security in
    a designated area.

                                                       3
             FOUO (C81ltlli1l8 NATO RESTRlCT)!;Q IRf9FlRllti8R)
      FOUO (Contains NATO R-ESTR-ICTEB Ineel IltstieR)



            DoD Support to the Training of the
            NATO International Security Assistance
            Force (D)
            (U) DoD supported and stands ready to continue to support NATO ISAF
            training for headquarters, regional commands, and individuals based on
            NATO ISAF training requirements established in July 2006. Unless
            training requirements are continually updated to reflect changes in the
            composition of ISAF and evolving operations in Afghanistan, DoD may
            not be able to provide up-to-date support for training coalition forces to
            prepare them for duty in ISAF. Therefore, DoD should continuously work
            with NATO to update and validate training requirements.


Criteria (U)

     (U) We detennined, and an official in the Office of the U.S. Mission to NATO
     confirmed, that there is no single document or agreement that states what the
     United States agreed to provide NATO to support ISAF. NATO has an
     established process for requesting contributions of forces from member and
     contributing nations. According to a U.S. Joint Staff official, when NATO
     submits a request for forces, the Joint Staff routes, staffs, and approves the request
     through the established U.S. force-generation process. A NATO ACT official
     stated that requests for U.S. Joint Forces Command support for ISAF training are
     approved by officials at various levels in NATO ACT or U.S. Joint Forces
     Command, depending on the complexity of the request.

     (U) A U.S. Joint Staff official stated that the NATO ISAF Combined Joint
     Statement of Requirements establishes the overall force structure for ISAF.
     Based on that force structure, NATO is responsible for developing ISAF training.




                                           4
      FOUO (C8Rh.iRS Ni.TO               RI!;~TIUCT~DIRWFRlatiQR)
                                                                                              b(2)
     FOUO (Contains NATO RESTRiCTBB                         IIlf8I·1ft8ti8B~




DoD Support to ISAF Training (U)

    (U) 000 successfully supports NATO in satisfying its ISAF training
    requirements, which were established in July 2006, by providing
    observer/trainers, support personnel, access to U.S. training facilities, logistics
    support, teachers, and U.S. reservists. NATO officials provided positive feedback
    on the ISAF training support provided by DoD through February 2007, stating
    that DoD provides training capabilities and facilities that NATO does not have.
    The U.S. Joint Forces Command assists NATO ACT in planning and conducting
    {SAF training; the U.S. European Command makes its facilities available to train
    NATO personnel.




                                         5
     FOUO (CIUltliillS l'lATO RBSTR-ICTBD IBf8Flftllti8H)
                                                                                          b(2)
             FOf:JO (€Inltllifts ~ATO Rli;STR:lCTIi:I;,) IHHlFmllti8H)




           (0) Individual Training. DoD, in partnership with the German Government,
           supp0l1s the NATO School by providing supp0l1 personnel, facilities, and help
           with logistics. The NATO School conducts education and training for individuals
           on current and emerging NATO concepts and policy. In "HQ ISAF Individual
           Augmentee Training Course" (hereafter the Individual Training Memorandum),
           dated March 16, 2007, JFC-Brunssum invited ISAF contributi~ countries to
           participate in an ISAF headquarters individual augmentee (rA) predeployment
           course. The course was conducted at the NATO School in Oberammergau,
           Germany, June 11-15,2007. The course provided information on the ISAF
           mission, complemented national deployment preparation, and facilitated staff
           integration in theater.
           (0) Other DoD Support. According to a NATO ACT official, DoD contributes
           266 reservists to NATO ACT to support NATO training. Using reservists offers
           enhanced capabilities for training; provides a fully integrated, ready, and trained
           team; and helps develop a cooperative partnership with NATO. U.S. personnel
           assigned to the JWC and JFTC stated that the program was beneficial in
           supporting NATO training activities, including ISAF training events.
           (D) For additional details on DoD supp0l1 to ISAF training, see Appendix C.


ISAF Training Requirements (U)

           (0) NATO acknowledges in its ISAF training requirements Memorandum that
           requirements are evolving because of recent changes in the composition ofISAF
           headquarters and the nature of operations in Afghanistan. The Memorandum
           states that current training requirements for ISAF are not meant to be definitive,
           but rather to evolve with the mission.
           (D) A number of critical events have occurred in the last year and a half that have
           had a significant effect on ISAF training: NATO training requirements for ISAF
           were issued in July 2006, the ISAF mission completed its transition to NATO
           control in October 2006, and the first ISAF composite headqua11ers staff deployed
           in February 2007. Thus, developing ISAF training has been a dynamic process.
           (U) The new composite ISAF headquarters staff comprises three distinct training
           audiences: the conunand group and key leaders (approximately 50 personnel),
           the standing headquarters staff (approximately 170 personnel), and lAs
           (approximately 650 personnel). The new composite structure relies heavily on
           lAs, the largest component of the ISAF headquarters staff. lAs, rather than large
           groups, rotate in and out of the headquarters. Reliance on individuals from many
           countries rather than on a unit from a single country to serve at ISAF headquarters
           makes mission rehearsal training vital. The lAs meet and learn to work

6   (U) An LA is assigned to a temporary position to augment staff during contingencies.

                                                      6
             FOf:JO (€Imtftifts         ~IrTO       RBSTRICTIi>D Iftfertllftti8ft)
                                                                                                 b(2)
     FOBO (Cllntllills NATO RESTIHCTEB Inti" mlltillll~


    (U) together in an operational environment. The mission rehearsal training
    prepares lAs to function at the ISAP headqual1ers in Afghanistan.

    (U) Although the July 2006 Memorandum did not detail training requirements
    for lAs, NATO recognized the need to train them and began to develop training
    courses. In February 2007, the JWC conducted the first ISAP lA training event.
    The Individual Training Memorandum described the development of a new
    training course for lAs assigned to ISAP headquarters. That course was
    conducted at the NATO School in June 2007. Subsequent sessions of the course
    were planned for October 2007 and for each quarter in 2008. In addition, a
    NATO ACT official stated that JFC-Brunssum leadership is reviewing ISAF
    training requirements for [As.




    (U) An assessment of the first training for the new composite headquarters staff
    would validate training requirements for ISAP headquarters. The composite
    structure refers to the use of lAs, not an existing headquarters unit, to fill most
    staff positions at [SAP headquarters. The assessment would determine whether
    requirements issued in July 2006 remain adequate to properly train ISAP
    headquarters personnel, including lAs, and determine which lessons learned from
    the activities of the new command should be incorporated into future ISAP
    headquarters training.


Conclusion (U)

    (U) ISAF training requirements need to be continually updated so DoD can
    effectively assist NATO in training forces for duty in Afghanistan. NATO
    acknowledged in its ISAF training requirements Memorandum that requirements
    are evolving as the mission and structure of [SAP change. [ftraining
    requirements for [As serving at ISAP headquarters remain undefined and lAs do
    not attend training, lAs will arrive in Afghanistan untrained and will spend the
    beginning portion of their deployment in on-the-job training. This delay, which
    will put unnecessary strain on ISAP headquarters staff, could be eliminated by
    predeployment training based on up-to-date training requirements. Therefore,
    DoD should continue to work with NATO to identify and develop training
    requirements that will adequately prepare future members ofISAF for




                                         7
     FOUO (ClllltllillS Jl'LHO         R:ESTIUCT~D           IR(Ql'lRa&iQR)
                                                                                          b(2)
     FO,,"O (C81ltlli1l8 ~t'\TO         Ri:~TRICTJj;D         IRfQl'lRa&iQA)


    (U) deployment. Unless training requirements are reviewed continually, ISAF
    training may not be fully representative of what the staff will face in Afghanistan,
    limiting the effectiveness of ISAF.


Management Comments on the Finding and Audit
 Response (U)

    (U) Although not required to comment, the Deputy Joint Force Trainer,
    Operations, U.S. Joint Forces Command provided the following comments on the
    finding. For the full text of U.S. Joint Forces Command comments, see the
    Management Comments section of the report.

            (U) U.S. Joint Forces Command Comments. The Deputy Joint Force
    Trainer, Operations, U.S. Joint Forces Command recommended updating
    sentences in the report that discuss the timing of ISAF training events. The
    command also recommended inserting text about online training that it planned to
    offer beginning in October 2007.

           (U) Audit Response. We considered the Deputy Joint Force Trainer,
    Operations, U.S. Joint Forces Command's comments to the draft report when
    preparing the final report. We updated the report to reflect the training events that
    occurred after our audit work.


Recommendation (U)

    (U) We recommend that the Director, Joint Staff, through the National Military
    Representative at Supreme Headquarters Allied Powers Europe, work with the
    North Atlantic Treaty Organization to advocate for continuous review and update
    oflnternational Security Assistance Force training requirements to reflect
    changes in the composition of the force and the evolving nature of operations in
    Afghanistan. At a minimum, the Director, Joint Staff should:

            I. (U) Assess the perfonnance of the first group trained as an
    International Security Assistance Force composite headquarters staff to determine
    whether training requirements are adequate.

           2. (U) Update the International Security Assistance Force training
    requirements as needed to reflect the growing importance of Individual
    Augmentees at International Security Assistance Force headquarters.


Management Comments Required (U)

    (U) The Director, Joint Staff did not provide comments to the draft report.
    Management comments to the final report are requested by February 25, 2008.

                                         8
     FO~O      (C8RtlliR8 ~ATO         Ri:~TRlCTED IIlf8t'lltllti8R~
    FOBO tC611tllillS PlATO RESTRICTED Iftf8.lttftti6ft)



Appendix A. Scope and Methodology (U)
   (U) We conducted this performance audit from December 2006 through June
   2007 in accordance with generally accepted government auditing standards.
   Those standards require that we plan and perfonn the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   (U) Our overall objective was to evaluate 000 support to NATO ISAF in
   Afghanistan. Specifically, we planned to review DoD support in training,
   communications, and interoperability. During the audit we decided to focus on
   DoD support to NATO ISAF training. Communications and interoperability
   concerns were reviewed only in relation to NATO ISAF training.
   (U) To develop an understanding of how DoD supports NATO ISAF training, we
   visited, contacted, and conducted interviews with officials from the following
   organizations.

      •   (U) Under Secretary of Defense for Policy;

      •   (U) Joint Staff;
      •   (U) U.S. European Command, Stuttgart, Germany; U.S. Army Europe,
          Heidelberg, Gennany; and Joint Multinational Readiness Center,
          Hohenfels, Germany;

      •   (U) U.S. Joint Forces Command, Norfolk, Virginia; and NATO School,
          Oberanuncrgau, Gennany;

      •   (U) U.S. Central Command, Tampa, Florida;
      •   (U) U.S. Anny 10th Mountain Division, FOlt Drum, New York; Center
          for Army Lessons Learned, FOlt Leavenworth, Kansas; and National
          Simulation Center, Fort Leavenworth, Kansas;

      •   (U) Marine Corps Center for Lessons Learned, Quantico, Virginia; and
      •   (U) NATO Headquarters, Brussels, Belgium; NATO Supreme
          Headquarters Allied Powers Europe/ACO, Mons, Belgium; NATO Allied
          Command-Transfonnation, Norfolk, Virginia; NATO JFC-Brunssum,
          Brunssum, Netherlands; NATO JWC, Stavanger, Norway; NATO JFTC,
          Bydgoszcz, Poland; and NATO Joint Analysis and Lessons Learned
          Centre, Lisbon, Portugal.
   (U) We reviewed guidance and documentation dated November 2002 through
   June 2007, including the JFC-Brunssum memorandum "Training Requirements
   for ISAF," July 27, 2006, to determine NATO ISAF training requirements. We
   reviewed JFC-Brunssum memorandum, "HQ ISAF Individual Augmentee
                                      9
    FOBO (C6fttllifts NATO RESTIHCTED Iftf8.lttftti8R)
     FOBO (C6ntnins NATO lHlSTRlCTBB Inisl IfIllti6n)



    (0) Training Course," March 16,2007, to detelmine NATO plans for developing
    a pilot IA course at the NATO School. We reviewed NATO "Bi-Sc Directive
    75-3 (Interim)," February 15,2006, to determine NATO policy for training
    exercises. We reviewed the ''NATO Handbook," 2006, to document the structure,
    functions, and responsibilities of NATO organizations.

    (U) We researched a project on DoD support to NATO from October 2006 to
    December 2006. During this time we gathered documentation and interviewed
    personnel to support our research project objective, which resulted in this audit
    "DoD Support to NATO International Security Assistance Force."

    (U) Use of Computer-Processed Data. We did not use computer-processed
    data to perfonn this audit.

    (U) Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    does not provide coverage of a high-risk area.


Prior Coverage (U)

    (U) No prior coverage has been conducted on DoD support to NATO training
    during the last 5 years.




                                         10
     FQlJQ (Csatllias [)lATQ           RJi:~TgJCT}i;D        IafllFfMllti8a)
      FOUO tc6fttsiftS I'(ATO llESTIHCTJiJD IRf8rlRllti8R~



Appendix B. NATO Structure (U)

NATO Political and Military Components (U)

     (U) NATO is both a political and a military entity. The principal policy and
     decision-making institutions of NATO are the North Atlantic Council, the
     Defence Planning Committee, and the Nuclear Plalming Group. The decisions
     made by these bodies represent the agreed policy of the member countries. The
     Defence Planning Committee and the Nuclear PlalUling Group are not further
     addressed in this appendix, as they were not applicable to the audit objective.

     (U) North Atlantic Council. The North Atlantic Council has political authority
     and powers of decision. The Council consists of permanent representatives of all
     member countries. The North Atlantic Council is the only body in NATO that
     derives its authority explicitly from the North Atlantic Treaty. The North Atlantic
     Council provides a unique forum for wide-ranging consultation among member
     governments on all issues affecting their security and is the most important
     decision-making body in NATO. Decisions of the Council are the expression of
     the collective will of member governments arrived at by common consent.

     (U) Military Structure. The military structure of NATO consists of the Military
     Committee, two strategic commands (ACO and ACT), and the Military Command
     Structure. The following paragraphs describe the aspects of the military structure
     that were pertinent to our audit objective.

             (U) Military Committee. The Military Committee is the senior military
     authority in NATO. The Military Committee is responsible for overseeing the
     development ofNATO military policy and doctrine and for providing guidance to
     the NATO strategic commanders. The U.S. Delegation to the NATO Military
     Committee reports to the Joint Staff.

             (U) ACO. The ACO plans and executes the operations that the North
     Atlantic Council has agreed to undertake. ACO has three operational commands:
     two JFCs in Brunssum, Netherlands, and Naples,ltaly, and a third, more limited
     Joint headquarters in Lisbon, Portugal. The two JFCs have subordinate land, sea,
     and air component commands.

            (U) ACT. The ACT is responsible for:

                •   (U) conducting training and education programs to provide
                    leaders, specialists, and headquarters staffs that are trained to
                    common NATO standards and are capable of operating efficiently
                    in ajoint military environment;

                •   (U) suppOl1ing the exercise requirements of ACO throughout the
                    planning, execution, and assessment phases;



                                         II
      FOYO (C8RtlliRS ~ATO             &JiJ~TIUCTED IRf9FlRlltiIlR~
      Feue (Contains NATO              R,ESTR:ICT~9 IRfeFIMQti8R)




               •   (U) leading the transformation ofNATO military structures,
                   forces, and capabilities; and

               •   (U) exploring concepts and promoting doctrine development.

            (U) The ACT is located in Norfolk, Virginia, and has close ties to the
    U.S. Joint Forces Command. Within ACT, three subordinate organizations
    contribute to NATO training and transformation. JWC, located in Stavanger,
    Norway, promotes and conducts NATO experimentation, analysis, and doctrine
    development to foster transformation and improve NATO capabilities and
    interoperability. JFTC, located in Bydgoszcz, Poland, conducts joint and
    combined training at the tactical level. JFTC offers courses and its staff deploys
    to assist in the training of NATO and partner forces. NATO Joint Analysis and
    Lessons Learned Centre, located in Portugal, conducts analyses of real-world
    joint military operations and exercises, establishes and maintains a lessons
    learned database, and monitors the associated remedial action process.

            (U) Military Command Structure. The Military Command Structure is
    the mechanism that enables NATO military authorities to command and control
    the forces assigned to them for joint operations.

NATO ISAF Components (U)

    (U) The mission ofNATO ISAF is to conduct military operations to assist the
    Government of Afghanistan in establishing and maintaining a safe and secure
    environment with the full engagement of Afghan National Security Forces, and to
    extend Government authority and influence, thereby facilitating Afghanistan's
    reconstruction and contributing to regional stability. ISAF features troop
    contributions from 37 nations and has a total strength of approximately 36,000.
    (U) ISAF Headquarters Staff. The ISAF headquatiers staff was originally
    drawn from a single country. Now ISAF X headquarters staff members are drawn
    from the NATO standing headquarters, NATO member countries, and other
    countries that contribute to the mission. The transition to a composite structurc
    was marked by the naming of a new commander on February 4, 2007. Personnel
    in the headquarters rotate in and out continuously, enhancing continuity of
    operations.
    (U) ISAF Regional Commands. ISAF comprises five RCs: Capital, South,
    West, North, and East. As of March 2007:

       •   (U) RC-Capital, headquartered in Kabul, was led by France;
       •   (D) RC-South, headquartered in Kandahar, was led by the Netherlands;

       •   (U) RC-West, headquartered in Herat, was led by Italy;




                                        12
     FOlIO (C8RtQiRS NATO R:~~TlUCT~9IRf9FIMQti8R)
      FOBO (Clllltllill~ NATO DIil8TR-ICTEB IftMI'Htltti8H)



        •   (U) RC-NOI1h, headquartered in Mazar-e-Sharif, was led by Germany;
            and

        •   (U) RC-East, headquartered in Bagram, was led by the United States.

           (U) Provincial Reconstruction Teams. The role of Provincial
    Reconstruction Teams is to assist the local authorities in reconstructing and
    maintaining security in a designated area. There are 25 Provincial Reconstruction
    Teams in Afghanistan that report to their respective RC.

DoD Commands Supporting NATO ISAF (U)

    (U) The following DoD organizations support NATO in carrying out its ISAF
    training functions.

    (U) U.S. European Command. The U.S. European Conunand, a geographic
    combatant conunand located at Patch Barracks in Stuttgalt, Ge1111any, has an area
    of responsibility that includes more than 90 countries in Europe and Africa. The
    command is responsible for maintaining ready forces; enhancing transatlantic
    security through its support of NATO; and promoting regional stability while
    countering terrorism. U.S. European Command component conunands include
    U.S. Army Europe, Heidelberg, Germany; U.S. Naval Forces EuropelU.S. Sixth
    Fleet, Naples, Italy; U.S. Air Forces Europe, Ramstein, Germany; U.S. Marine
    Forces Europe, Stuttgart, Germany; and Special Operations Conunand Europe,
    Stuttgart, Germany.

    (U) The U.S. Army Europe's training staff is responsible for managing the
    training ofjoint and combined NATO and Service Component forces. The
    U.S. Army Europe's Joint Multinational Training Center is the command element
    for the training facilities in Grafenwoehr and Hohenfels, Germany. The Joint
    Multinational Readiness Center, located in Hohenfels, provides U.S. and coalition
    troops with joint and combined arms training. The Joint Multinational Readiness
    Center supports NATO by providing OMLT training, special operations forces
    training, an urban breach course, and a livc-fire course on countering improvised
    explosive devices.

    (U) U.S, Joint Forces Command, The U.S. Joint Forces Command is
    responsible for the transformation of U.S. military capabilities. The command
    develops joint operational concepts, tests the concepts through rigorous
    experimentation, educates joint leaders, trains joint task force commanders and
    staffs, and recommends joint solutions to the Services to better integrate their
    warfighting capabilities. The U.S. Joint Forces Conunand seeks the coherent
    integration of military capabilities with other elements of national and allied
    power, such as NATO. The joint force concept for development and
    experimentation is an inherent component of its mission.

    (U) NATO School. The NATO School, located in Oberanunergau, Germany,
    conducts individual, operational-level education and training on NATO current
    and emerging strategy, concepts, doctrine, policy, and procedures to improve the
    operational effectiveness of NATO. The NATO School is under the operational
                                        13
     FQIJQ (C8HtlliRS        ~A:rQ R,E~:rIUC:rE)')          IRfIlFAlatiIlR)
 FOUO (C8l1taifts :~t\TO RESTRICTEB Infol Illation)


CU) control of the Supreme Allied Commander-Transformation in Norfolk,
Virginia; the U.S. Joint Forces Command and Germany are responsible for
contributing facilities and logistics support.

(U) U.S. Central Command. The U.S. Central Command, a geographical
combatant command, headquartered at MacDiIl Air Force Base, Tampa, Florida,
was formally established in January 1983. The U.S. Central Command is
responsible for 27 countries that stretch from the Hom of Africa throughout the
Arabian Gulf Region and into Central Asia. The U.S. Central Command conducts
joint and combined operations in its area of responsibility to defeat adversaries,
promote regional security and stability, support allies, and protect vital
U.S. interests. For the Operation Enduring Freedom mission in Afghanistan,
Combined Joint Task Force-82 reports to the Commander, U.S. Central
Command.




                                    14
 FOUO (C8ldtlins NATO RESTRICTED IIIf8rl\ltltillll~
       FOYO (C6lltllillS J)lATO RESTR-ICTI'l9 Iftf8PlMati8ft)



Appendix C. Training of NATO ISAF (U)



ISAF Headquarters Training (U)




        ••
        •
         •
        •


     .. ..
     ••••' '.,1'"1' ,.
                         . .._




                                  15
      YO-YO (C8fttaifts ~lATO    R.J&~T&lCTEI)   IRwrAiatiQR)
                                                                b(2)
        •   E?IH'Relcasable PFP)
        •   EPJY,fReIB8B88Ie PfP)

        •   fhl3J'Rclcdsublc PFP1
        •   tNYlflBIB8B8~le   PfP)




     (U) DoD Support. U.S. Joint Forces Command officials stated that they began
     supporting the JWC ISAF IX Mission Rehearsal Training event in March 2006.
     At the request of the JWC Chief of Staff, the U.S. Joint Forces Command
     provided three functional area observer/trainers.
     (U) In October 2006, the U.S. Joint Forces Command provided support to the
     JWC ISAF X Mission Rehearsal Training in Stavanger, Norway. ISAF X
     conducted a 2-week training event comprising mission-focused lectures and battle
     staff training that culminated in a command post exercise. Based on a request
     from the ACT, the U.S. Joint Forces Command provided 26 personnel to help
     with training for scenario development/control, simulations, communications,
     senior mentor/observer/trainers, and special operations. The 82nd Airborne
     Division provided seven additional personnel to play the role of RC-East.
     (U) For the November 2007 ISAF XI Mission Rehearsal Training in Stavanger,
     Nonvay, the U.S. Joint Forces Command was to provide similar support for
     development/control, simulations, communications, senior
     mentor/observer/trainers, and special operations. This rehearsal was to be the
     primary predeployment training for the staffs ofiSAF XI headquarters and
     RC-South. The 10 I st Airborne Division had planned to send personnel to play
     the role ofRC-East.

ISAF RC and OMLT Training (U)




                                        16
      FOYO W61ltltillS "NATO          Jt.I!iSTRlCT~D       IllfeFIHRti9R)
                                                                                        b(2)
  'DUO (Contains P4Ar:'fO RRS'fRIC'FEB 1,,£01 hiatioh)


;..:i.••




(U) OMLT Training. ISAF nations have created OMLTs that help train the
Afghan National Army. Specifically, OMLTs are responsible for coaching,
teaching, and mentoring the Afghan National Army; assisting in planning and
executing combat operations; facilitating cooperation between Afghan National
Army units and ISAF partner units; and acting as RC liaison to Afghan National
Army units and staffs.

(U) The JFTC forms the command and control element for OMLT training,
which is conducted at the U.S. Army Europe's Joint Multinational Readiness
Center in Hohenfels, Germany. For OMLT training, the JFTC coordinates with
JFC-Brunssum for content, and the Joint Multinational Readiness Center for
scheduling and execution.




     ·     ~
     ·     ~
     ·     ~
(U) The OMLT IJJ training event was held January 25-February 7, 2007, at the
Joint Multinational Readiness Center. Six countries sent participants: United
Kingdom, Canada, France, Germany, Croatia, and the Netherlands. An official
from the Joint Multinational Readiness Center stated that an OMLT comprises
members of only one country; thus, six OMLTs were trained. Forces from
Afghanistan were also sent to train alongside the OMLTs. Additional OMLT
training was to occur in August 2007 and January 2008.

(U) 000 Support. 000 supports the JFTC by permitting it to use U.S. Army
Europe training facilities, such as at the Joint Multinational Training Center and
the Joint Multinational Readiness Center. NATO use of U.S. Army Europe
training facilities is based on the NATO Status of Forces Agreement.

(U) Officials at the Joint Multinational Command Training Center identified
support for several ISAF training events, including an RC-Capital event in June
2006 and an RC-South event in September 2006. Several ISAF training events
were conducted at the Joint Multinational Readiness Center, including three
OMLTevents.

(U) According to officials at the U.S. Joint Forces Command, they are expanding
their support for ISAF RC training. For the JFTC March 2007 RC-South training


                                     17
 fQUQ      (C9H~lliHS ~AlQ IU:~llU{,lil)Iitforlllatiou)
                                                                                     b(2)
       FOUO (Contains N,*TO RESTRICTED IftftU'1R8ti9ft)


     (U) held at Northwood, United Kingdom, the U.S. Joint Forces Command and
     the U.S. Special Operations Command provided expertise relating to intelligence
     support, personnel recovery, and special operations.

ISAF Unit Training (U)




Individual Training (U)




     (V) Provincial Reconstruction Team Training. In addition, the NATO School
     developed a Provincial Reconstruction Team training course. Sponsors are
     responsible for training the Provincial Reconstruction Teams; however, the
     NATO School offers a Provincial Reconstruction Team course to assist with the
     training.




                                        18
       FOUO (Contains !'JATO RESTlYCTEQ IafllFJRatillR)
                                                                                       b(2)
 FOUO (C6Ht8iHS NATO RBSTIHCT}!;9 IHHWIR8ti6H)


   •

   •

   •

(U) The purpose of the Provincial Reconstruction Team course is to infonn and
familiarize selected staff with Afghanistan, ISAF, and Provincial Reconstruction
Team operations and procedures before deployment. The NATO School
scheduled four Provincial Reconstruction Team courses for 2007, with a capacit)'
of 50 students per class.

(U) 000 Support. In June 2003, ACT assumed responsibility for operational
control of the NATO School. Germany and the U.S. Joint Forces Command
contribute facilities and logistics suppOll and provide the school with faculty and
staff members. Although the NATO School's budget largely depends on tuition
and fees from students, the school receives some funding from 000 to support the
U.S. contingent.




                                    19
 FOUO (C6Ht8iHS NATO RE~TRICT,J!;»                      IR~rlRatigA)

                                                                                      b(2)
         FOHO Wonlains Ntt:TO R:¥JSTRiCTJi1B IufOi mation)



Appendix D. Report Distribution (U)

(D)
Office of the Secretary of Defense
Under Secretary of Defense for Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (ProgramIBudget)
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army
Commanding General, 10th Mountain Division
Center for Army Lessons Learned
Joint Multinational Readiness Center

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Marine Corps Center for Lessons Learned

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Combatant Commands
Commander, U.S. Northern Command
Commander, U.S. Southern Command
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command
  Commander, Joint Warfighting Center
Commander, U.S. Pacific Command
Commander, U.S. European Command
  Commander, U.S. Army Europe
Commander, U.S. Central Command
Commander, U.S. Transportation Command
                                          20
         VO:tJO (eQA.AiRS ~ ATO IU:STlUCTED Ipformation)
        FOUO (C81ttaiBS .NATO RI!;~TRICTl!:D laf9rlRatiQa)


Commander, U.S. Special Operations Command
Commander, U.S. Strategic Command

Other Defense Organizations
U.S. Permanent Representative to the N0l1h Atlantic Treaty Organization
U.S. Delegation to the North Atlantic Treaty Organization Military Committee
U.S. National Military Representative to Supreme Headquarters Allied Powers, Europe
U.S. Representative, North Atlantic Treaty Organization, Supreme Allied Conunand,
   Transformation

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Conunittee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Govenunent Reform




                                         21
        FOUO (C8lttailts .NATQ 1Ui:~:rIUCTED Information)
FQ{.JQ (eBR.aiR!! NATQ Rl;8TIUCTEB Iftf81 Iftllti6ft)




      THIS PAGE INTENTIONALLY LEFT BLANK (U)




                         22
FQ{TQ (eBR.aiRS l\IATQ   RJi:~TJUCTil>   Iawrmatioa)
   FOUO (ClllltftiftS HATO R~STlUCT);;)') IR~l'lRatiQg)



U.S. Joint Forces Command Comments (U)
                                                                                                                                           Final Report
                                                                                                                                            Reference




                                               D:PARTMi:NT OF DEFENSE
                                              lr.fi'T!:!) Sl'AT"..s ~:!.'T fO:;;;:~$ COllW..\:t)
                                                     .10,'"   WARFy')''mSG CE.''T~
                                                          ,UL..J.X:Vo£WPM<;<W4V
                                                            li:&l:k. Yi'l;lI\:.I ~$
                                                                                                                       If..(J3JJ7
                                                                                                                      22 /\u,g 07


      :-'fE\-WRA.."'UL~l FOR IXSPl;crOR GE:'iERAL. USJFCO\1

      SlJbj~!:     17/ J\H'C Response 10 COS TM1:er J02·2846-Q7,'f)oDlG NATO Drnft f20 Auit 01

               I. In l1.·ipOllSC 10 COS       Tl!..~kcr    J02-18'16-07milD!G )\ATO ~f\ 120 Au: 07, J7 JWFC
      p:o\'jdcslnco follo\\ing:

               I.a. In '.he   ·'ndhi~c.3J TmiJljng~ p3J'il.j;f1lph ('In p. 6 (n\.'~1 103           1:151   ~;:nltl:CC); Ch:lnse ~\\';l.'   Revised
      sch~duled 10 ~ conducteu' to ·WI!.S conJuclcd~.
                                                                                                                                           Page 6
               l.b. Fim p.:Ull.ST:tr;' on p. 7 (Ihird and founh sentences): Ch.mge "which was .'Khedukd
      to b<: conJl:Ch.-d- 10 "\\hich \\!lS ('O!llju~l...d'· and ch:inge ~SubS«lllenl sCNions of Ihe cot:rSe :ll'~                          Revised
      P~Uled fOT SepC'mb~r 1007•..: 10 "Subsequent sess:ClIlS or lh.: c~urse 3!'C plann~d lor {k!o1'ler                                    Page 7
      2007,.   M




                I.e. In Ih~ "/$.'\1: Ilt.!~quJ.rter'i 1,\ Tr!l.inins" p:u3gnph ur.dcr -lndhidU31 Tcinir;g" 0:1 p.                          Revised
      18 (I:'1St four s..'tlI\~h·CS): Ch:ltlg... -"ill N c'):1duw:J" 10 "WilS coJXIucl.:d M• MM\\;l1 complement" 10
      MCOC1p   knl,)'IIIS", ",\iI\ provide" 10 "pro\'ides", :md Mprinurily t.'"2.ining :1UcliellCl: will be" 10
                                                                                                                                           Page 18
      "j:t\maQ' trci:ling sudieace b     M.




               I.d Add :lIth\: cnJ oflht fiNI p.m~pb on p. 7: MlA~ rot i1ble 10 i1nend the coU!~,)' el th~
      NATO Schoo! \\ill ~ abk!o complete M llnline C"UI~ bl:ing rlc\'l':k~pcd by L:SJFCO),l's ](,im
      Kr.ow!td~e DC"'r:!opm:nt ~'1d D:S:ribt..'I.ion C3p3bility (]KDJ)G) in c.oordinelion \\ith ACT and
      Ibe :,\,\TO S';~\{lVl. Th.: first is bow.i of tho: onli:1t: .:oun~ \..i ll be 1'.\ail~H:. to lAs in Ckt.:J!-..-r
      2007,;md =::!ditio:t:d nnline con:ent Tl"..:l)' ~ l!::\·e'op..."'tl.:l..~ required."

               I.e, Add al the er.d ,,(the MISAF Hc::dqUZ!.rtcr'i 1/\ Training" P~2:-:.ph ur;<!u "Indh·jdu:l.I
      TrcininCM on p, IS: MIAs n;)[ 3blc to :mend ti]C, qu.:o.ncrly con\'cnings i>flhe :'\".\TO S~hool course
      will cC':np!cte !heil:llinc tr.1ir.i:'ll; C":..L"SC trot will be i1\lli13ble:n <Xlobcr 1007:

      2.   poe Ihis ec!ion i~'• • • •I(j57) 1 0 3 .


                                                                 \(f~~7:a~(
                                                                 EXl"C"Jli\,;:OffiC<.'"l"
                                                                 DtPllt)' Joint Force Trnir.er, O~nlioru.




                                                                   23
   FOl:JO (CllfttftiftS PlATO R~STRJCT);;)') IRflll'lRatiQg)
                                                                                                                                                     b(6)
      THIS PAGE INTENTIONALLY LEFT BLANK (U)




FOUO (ClIntllins NATO R-ElSTRICTBB InMlllIlltilln)
 FOlIO (C8RtlliRS NATO lYiSTRICTI!:Q IRt'8t'lRllti8R)




(U)

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Robert F. Prinzbach II
Donald A. Bloomer
Michael J. Roark
Jeffrey C. Brown
Mackensie E. Ryan
Todd L. Truax
Ryan L. Fisher
Megan E. Goodman
Allison E. Tarmann




 FOUO (C8I1tlliRS        ~IATO   RI!:STRU::n:;o Information)
